Mu
fAP
No

Ip' 1^2.^
3fa

)i

Supreme Court of tfje Untteb States?

ROBERT L. SCHULZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition For Writ Of Certiorari
To The Court Of Appeals
Of The State Of New York

PETITION FOR WRIT OF CERTIORARI

Robert L. Schulz, pro se
2458 Ridge Road
Queensbury, New York 12804
(518) 361-8153
Bob@givemeliberty.org

QUESTIONS PRESENTED
Through more than 18 years of litigation, relying
on a thorough review of its historical record, Robert
Schulz has strived to fully restore the First Amend­
ment Right to Petition. As CEO, he guided the We The
People organization’s petitions for redress of violations
of the Constitution’s prohibition against undeclared
wars, invasions of privacy, un-enumerated powers and
direct un-apportioned taxes. Absent a response, the or­
ganization petitioned for redress of a violation of the
Right itself - tax withholding, which the organization
reasoned prevents the peaceful enforcement of Rights
against a Government stubbornly resistant to the
People’s rightful authority. Government enforcement
actions and litigation followed; relying on two inappli­
cable cases (Smith and Knight), the D.C. Circuit held
Government did not have to respond to the Petitions;
the 2d Circuit then held the Withholding Petition was
forbidden speech subject to penalty. Soon after, this
Court declared “we must look to historical practice to
determine its scope” {Heller) and “Interpretation of the
Petition Clause must be guided by the objectives and
aspirations that underlie the right” (Guarnieri). Re­
gardless, the IRS then penalized Schulz, the N.D.N.Y.
held the forerunners were fully, fairly and completely
litigated and the 2d Circuit did not respond to Schulz’s
argument re Heller and Guarnieri.
The questions presented are:
Whether a forerunner to this case, We The People,
et al. u. United States, 2005 U.S. Dist. LEXIS 20409
(D.D.C. 2005) aff’d 485 F.3d 140 (2007, D.C. Cir.) was

11

QUESTIONS PRESENTED - Continued
fully, fairly and completely litigated given that Court’s
decision not to consider the historical scope and pur­
pose of the Petition Clause but, instead, to rely on two
inapplicable cases (.Minnesota v. Knight, 465 U.S. 271
and Smith v. Arkansas, 441 U.S. 463) in concluding gov­
ernment was not obligated to respond to the organiza­
tion’s Petitions for Redress.
And, whether the other forerunner, United States
v. We The People, et al., 529 F. Supp. 2d 341 (N.D.N.Y.
2007) aff’d 517 F.3d 606 (2d Cir., 2008) (Schulz 1) was
fully, fairly and completely litigated given that Court’s
decision to avoid Defendants’ Petition Clause argu­
ment altogether and instead declare the Withholding
Petition was subject to penalty.
And, if not fully, fairly and completely litigated,
whether the Court should vacate the Summary Order
below and the final decisions and judgments in said
forerunners and remand to the D.C. Circuit in light of
District of Columbia v. Heller, 554 U.S. 579 and Bor­
ough of Duryea v. Guarnieri, 564 U.S. 379.

Ill

PARTIES TO THE PROCEEDINGS
All parties to the proceeding are listed in the cap­
tion. Rule. 29.6 does not apply to this Petitioner.
Defendant-Counter-Claimant-Appellee in the court
below, respondent here, is United States of America.
Plaintiff-Counter-Defendant-Appellant in the court be­
low, petitioner here, is Robert L. Schulz, pro se.
STATEMENT OF RELATED PROCEEDINGS
Schulz u. IRS,
413 F.3d 297 (2d Cir., 2005)
We The People, et al. v. United States,
2005 U.S. Dist. LEXIS 20409 (D.D.C. 2005) aff’d
485 F.3d 140 (D.C. Cir., 2007)
Schulz v. IRS,
230 Fed. Appx. 709 (9th Cir., 2005)
Schulz v. IRS,
240 Fed. Appx. 167 (8th Cir., 2005)
Schulz v. IRS,
205 U.S. Dist. LEXIS 40161 (N.D.N.Y., 2006)
United States v. We The People Foundation, et al.,
529 F. Supp. 2d 341 (N.D.N.Y. 2007) aff’d
517 F.3d 606 (2d Cir., 2008)

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.............

1

PARTIES TO THE PROCEEDINGS

11

STATEMENT OF RELATED PROCEEDINGS ....

ii

TABLE OF AUTHORITIES................................... vm
PETITION FOR WRIT OF CERTIORARI...........

1

OPINION BELOW..................................................

1

CITATIONS OF OPINIONS AND ORDERS EN­
TERED IN THIS CASE......................................

1

JURISDICTION......................................................

4

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS INVOLVED AND STAGE IN PRO­
CEEDINGS WHERE THE PROVISIONS
WERE RAISED...................................................

4

INTRODUCTION...................................................

10

STATEMENT OF THE CASE................................

11

I.

Historical Practice Should Determine Scope
and Purpose of the Petition Clause — Hel­
ler and Guarnieri......................................... 12
II. The Organization’s Petitions Were Proper
First Amendment Petitions for Redress.... 25
III. The D.C. and 2d Circuits Have Abolished
the First Amendment Right to Petition
and by Extension, the Structure of the
26
Constitution

V

TABLE OF CONTENTS - Continued
Page
REASONS FOR GRANTING THE WRIT............
I. First Impression Case of Exceptional Con­
stitutional Importance.................................
II. The D.C. and 2d Circuits Prohibited the
Sovereign People From Defending Their
Law By Abolishing Their Right to Petition
for Redress....................................................
III. History Repeats Itself..................................
CONCLUSION........................................................

35
36

37
38

40

APPENDIX
Appendix A Summary Order in the United
States Court of Appeals for the Second Circuit
(December 18, 2020)......................................... App. 1
Appendix B Memorandum Order in the United
States District Court Northern District of
New York (March 27, 2019)............................. App. 7
Appendix C Memorandum Order in the United
States District Court Northern District of
App. 25
New York (October 9, 2019)
Appendix D Memorandum Order in the United
States District Court Northern District of
App. 29
New York (July 12, 2018)
Appendix E Memorandum Order in the United
States District Court Northern District of
App. 51
New York (August 24, 2017)

VI

TABLE OF CONTENTS - Continued
Page
Appendix F Text Order in the United States Dis­
trict Court Northern District of New York
App. 59
(June 21, 2017)
Appendix G Decision and Order in the United
States District Court Northern District of
App. 60
New York (May 4, 2017)
Appendix H Decision and Order in the United
States District Court Northern District of
App. 67
New York (April 14, 2017)
Appendix I Memorandum Order in the United
States District Court Northern District of
App. 71
New York (March 7, 2017)
Appendix J Memorandum Order in the United
States District Court Northern District of
App. 85
New York (May 6, 2016)
Appendix K Memorandum Order in the United
States District Court Northern District of
App. 105
New York (February 11, 2016)
Appendix L Per Curiam Decision in the United
States Court of Appeals for the Second Circuit
App. 117
(February 22, 2008)
Appendix M Judgment in the United States Dis­
trict Court Northern District of New York (Au­
App. 122
gust 15, 2007)
Appendix N Decision and Order in the United
States District Court Northern District of
App. 123
New York (August 9, 2007)

Vll

TABLE OF CONTENTS - Continued
Page
Appendix O Opinion in the United States Court
of Appeals District of Columbia (May 8,
App. 156
2007)
Appendix P Opinion and Order in the United
States District Court District of Columbia
App. 176
(August 31, 2005)
Appendix Q Per Curiam Opinion in the United
States Court of Appeals for the Second Circuit
App. 183
(June 29, 2005)
Appendix R Per Curiam Opinion in the United
States Court of Appeals for the Second Circuit
App. 199
(January 25, 2005)
Appendix S Order in the United States District
Court for the Northern District of New York
App. 205
(December 3, 2003)
Appendix T Decision and Order in the United
States District Court Northern District of
App. 207
New York (October 16, 2003)
Appendix U Statement of Material Facts in the
United States District Court Northern Dis­
App. 211
trict of New York (January 2, 2018)

Vlll

TABLE OF AUTHORITIES
Page
Cases
Borough of Duryea v. Guarnieri, 564 U.S. 379
10,11,12
(2011)
District of Columbia v. Heller, 554 U.S. 570
10,11,12
(2008)
Marbury v. Madison, 5 U.S. (1 Cranch) 137
(1803)..........................................................
Minnesota v. Knight, 465 U.S. 271 (1984)

35

30,31, 38

New York Times Co. v. U.S., 403 U.S. 670 (1971)

18

Schulz v. IRS, 413 F.3d 297 (2d Cir., 2005)........

29

Smith v. Arkansas, 441 U.S. 463 (1979)

30,31,38

United States v. We The People, etal., 529 F. Supp.
2d 341 (N.D.N.Y., 2007) aff’d 517 F.3d 606 (2d
passim
Cir., 2008) (Schulz 1)
We The People, et al. v. United States, 2005 U.S.
Dist. LEXIS 20409 (D.D.C. 2005) aff’d 485
,passim
F.3d 140 (D.C. Cir., 2007)
United States Constitution
Article I, Section 1...................

6

Article I, Section 2, Clause 3..

6

Article I, Section 8, Clause 5..

7

Article I, Section 8, Clause 11

7

Article I, Section 9, Clause 4..

6, 26

Article I, Section 10, Clause 1

8

IX

TABLE OF AUTHORITIES - Continued
Page
Article I, Section 10, Clause 11

7

Article III, Section 2................

4

First Amendment.....................

,passim

Fourth Amendment.................

5

Ninth Amendment...................

5

Statutes
26 U.S.C. 6501

8,11,32

26 U.S.C. 6700

......... passim

26 U.S.C. 6751

2,4, 9,11,35

Other Authorities
Public Law 63-43 (Federal Reserve Act)

7,26

Public Law 107-56 (Patriot Act)............

5,26

Public Law 107-243 (Iraq Resolution)...

7, 8, 26

Public Law 109-432 (Authorizing Treasury to
publish list of “Specified Frivolous Posi­
6, 29, 30, 38
tions”)
Treasury Notice 2007-30 (list of Specified Frivo­
6, 29, 30, 38
lous Positions)...................
Internal Revenue Manual 25

8,32

1
PETITION FOR WRIT OF CERTIORARI
Robert L. Schulz respectfully petitions for a writ of
certiorari to review the Summary Judgment of the
United States Court of Appeals for the Second Cir­
cuit.

OPINION BELOW
The Second Circuit’s Summary Judgment, dated
December 18, 2020 and reported at 831 Fed. Appx. 48,
affirmed the Summary Judgment of the Northern Dis­
trict of New York, dated March 27, 2019, reported at
2019 U.S. Dist. LEXIS 51073.

CITATIONS OF OPINIONS AND
ORDERS ENTERED IN THIS CASE
The Second Circuit’s December 18, 2020 sum­
mary judgment affirming a financial penalty of $4,430
against Schulz as ordered by the District Court on
March 27, 2019 is reported at 831 Fed. Appx. 48.
The District Court’s March 27, 2019 summary
judgment that fixed the amount of a penalty and de­
termined Schulz was personally liable for the penalty,
is reported at 2019 U.S. Dist. LEXIS 51073.

2

The District Court’s October 9,2018 decision deny­
ing Schulz’s motion for reconsideration of the Court’s
July 12, 2018 decision is reported at 2018 U.S. Dist.
LEXIS 173391.
The District Court’s July 12, 2018 decision re­
jecting Schulz’s 26 U.S.C. 6751 jurisdictional claim
and finding the We The People organization was
Schulz’s alter ego is reported at 2018 U.S. Dist.
LEXIS 115760.
The District Court’s August 24, 2017 decision af­
firming the Magistrate’s June 21,2017 text order deny­
ing Schulz’s request to subpoena IRS’s Lois Lerner
while approving Schulz’s request to subpoena other
IRS employees is reported at 2017 U.S. Dist. LEXIS
205524.
The District Court Magistrate’s June 21, 2017
text order denying Schulz’s request to subpoena IRS’s
Lois Lerner is reported at 2017 U.S. Dist. LEXIS
131516.
The District Court’s May 4, 2017 decision grant­
ing Schulz’s motion for an explanation of the Court’s
decision to prematurely deny his March 21, 2017 mo­
tion for reconsideration and denying his motions: 1)
for reassignment due to “outside influence” of the
question whether Schulz 1 was fully, fairly and com­
pletely litigated; 2) that the Court’s March 7, 2017
and April 14, 2017 judgments be set out in a separate
document; and 3) to amend the Court’s April 14,2017

3

Decision by removing the “wholly unfair and mis­
leading” footnote and modifying a “wholly unfair and
misleading” paragraph is reported at 2017 U.S. Dist.
LEXIS 131516.
The District Court’s April 14, 2017 decision deny­
ing Schulz’s motion for reconsideration of the Court’s
March 7, 2017 decision is reported at 244 F. Supp. 3d
307.
The District Court’s March 7, 2017 decision deny­
ing Schulz’s motion to relitigate Schulz 1, finding the
District Court’s Decision in Schulz 1 that found the Tax
Withholding Petition for Redress to be an abusive tax
shelter subject to penalty under 26 U.S.C. Section 6700
is entitled to preclusive effect in this case, is reported
at 244 F. Supp. 3d 307.
The District Court’s May 6,2016 Decision denying
Schulz’s statute of limitations/latches claim and mo­
tion for summary judgment, and granting the Govern­
ment’s motion to dismiss the IRS as a Defendant is
reported at 216 U.S. Dist. LEXIS 19229.
The District Court’s February 11, 2016 Decision
denying Schulz’s motion for the removal of the no­
tice of tax lien is reported at 216 U.S. Dist. LEXIS
19229.

4
JURISDICTION
This Court has jurisdiction under Article III, Sec­
tion 2 of the Constitution for the United States of
America, the First Amendment to the Constitution of
the United States of America and 28 U.S.C. Section
1254(1) and 26 U.S.C. 6751.
The Summary Judgment of the United States
Court of Appeals was entered on December 18, 2020.
In accordance with Rule 13.1 of this Court, this peti­
tion is filed within 150 days of the date of the entry of
the Summary Order.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED AND
STAGE IN PROCEEDINGS WHERE
THE PROVISIONS WERE RAISED
References to STMT OF FACTS in the footnotes
refers to Document 197-2 filed in this case and in­
cluded herein at Appendix U.1
The First Amendment to the U.S. Constitution,
which provides “Congress shall make no law . . .
abridging . . . the right of the people ... to petition
the Government for redress of grievances” (the “Peti­
tion Clause”) was raised in this case2, and in each of
1 Included at pages A-l thru A-69 in Appellant’s Appendix at
the 2d Circuit.
2 AMD COMP 3,18; 2d AMD COMP 21; STMT OF FACTS 3,
4; APP BR passim; APP REPLY BR passim.

5

its two forerunners, We The People, et al. v. United
States3, and United States v. We The People, et al.
(Schulz 1).4
The Fourth Amendment, which provides “The
right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and
seizures, shall not be violated. . . was raised in con­
nection with the passage of Public Law 107-56 (the
“Patriot Act”) in this case5 and its forerunners We The
People6 and Schulz l.1
The Ninth Amendment, which provides: “The
enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others re­
tained by the people” was raised in connection with

3 AMD COMP pages 1-4, 7-25; OPP TO DISM 9-24, 29-41,
SURREPLY 1-5.
4 Def. Motion to Dismiss filed 5/23/07 at 2-8, 15-20 and
throughout Declarations 1-3; Def. MOL in Opp. to Summary
Judgment filed July 16, 2007 at 4-7 and Declarations 4-10; Def.
MOL for reconsideration filed August 19, 2007 at 1-3, 13-25 and
Declaration 11.
5 AMD COMP 4; 2d AMD COMP 4, 23; STMT OF FACTS 3;
APP BR 2, 59, 61; APP REPLY BR 2, 29.
6 AMD COMP pages 2-4, 7-11; OPP TO DISM 21, 25.
7 Def. Motion to Dismiss filed 5/23/07 at 4, 17 and Declara­
tions 1-3; Def. MOL for reconsideration filed August 19, 2007 at 2
and Declaration 11.

6

enforcement of the Petition Clause in this case8 and
Schulz l.9
Article I, Section 1 of the U.S. Constitution which
provides, “All legislative Powers herein granted shall
be vested in a Congress of the United States. . . was
raised in connection with 1) the adoption of Public Law
109-432, which authorized the Treasury Secretary to
define “frivolous” and “prescribe a list of specified friv­
olous positions” and to fine anyone who submits one of
those positions, and 2) Treasury Notice 2007-30 which
declared as “frivolous” and subject to penalty the en­
forcement by the People of their Right to Petition the
Government for Redress of violations of the Constitu­
tion by withholding their money until their grievances
are redressed. This constitutional provision was raised
in this case.10
Article I, Section 2, Clause 3 and Article I, Section
9, Clause 4 of the Constitution provide, “direct Taxes
shall be apportioned among the several States. . . .”
and “No Capitation, or other direct, tax shall be laid,
unless in Proportion to the Census or Enumeration
herein before directed to be taken.” These provisions
were raised, in connection with the current, un-codified,

8 AMD COMP 3, 18; 2d AMD COMP 21, 23; APP BR 6.
9 Def. Motion to Dismiss filed 5/23/07 at 17 and Declarations
1-3; Def. MOL in Opp. to Summary Judgment filed July 16, 2007
at 4, 7, 17 and Declarations 4-10.
10 AMD COMP 5; 2d AMD COMP 7; STMT OF FACTS 1316; APP BR 4; APP REPLY BR 12.

7

direct, un-apportioned tax on labor, in this case,11 We
The People12 and Schulz 1.13
Article I, Section 8, Clause 5 and Article I, Section
10, Clause 11 provide, “Congress shall have the power
... To coin Money, regulate the Value thereof, and of
foreign Coin. . . .” and “No State shall . . . make any
Thing but gold and silver Coin a Tender in Payment
of Debts.” These provisions, along with the Constitu­
tion’s prohibition against un-enumerated powers,
were raised in connection with Public Law 63-43
(Federal Reserve Act) in this case,14 We The People15
and Schulz l.16
Article I, Section 8, Clause 11 which provides, “The
Congress shall have Power ... To declare War. . . .” was
raised, in connection with the passage of Public Law

11 AMD COMP 4; 2d AMD COMP 4, 23; STMT OF FACTS 3;
APP BR 2,59.61; APP REPLY BR 2, 29.
12 AMD COMP pages 2-4, 7-11; OPP TO DISM 21, 25.
13 Def. Motion to Dismiss filed 5/23/07 at 4, 17 and Declara­
tions 1-3; Def. MOL for reconsideration filed August 19, 2007 at 2
and Declaration 11.
14 AMD COMP 4; 2d AMD COMP 4, 23; STMT OF FACTS 3;
APP BR 2, 59, 61; APP REPLY BR 2, 29.
15 AMD COMP pages 2-4, 7-11; OPP TO DISM 21, 25.
16 Def. Motion to Dismiss filed 5/23/07 at 4, 17 and Declara­
tions 1-3; Def. MOL for reconsideration filed August 19, 2007 at 2
and Declaration 11.

8

107-243 (the Iraq Resolution), in this case,17 We The
People18 and Schulz l.19
Article I, Section 10, Clause 1, which prohibits the
Government from retroactively making “political and
legislative” any activity that was not political and leg­
islative when performed, was raised in this case in con­
nection with the IRS auditor who, in 2006 had declared
the organization’s records detailed, thorough and pro­
fessional with no inurement and void of any political
or legislative activity, was directed by IRS’s Lois Lerner in 2008 to revoke the tax exempt status of the
organization on “political and legislative grounds” ret­
roactive to 2003, and apply the maximum penalty and
interest.20
26 U.S.C. 6501 which provides, “the amount of any
tax imposed by this title shall be assessed within 3
years after the return was filed,” together with Inter­
nal Revenue Manual 25.6.22.5.11 require Form 872,
Consent to Extend Time To Assess Tax must be signed
by the IRS and returned to the taxpayer with a Letter
929 indicating IRS Consent, before the expiration of

17 AMD COMP 4; 2d AMD COMP 4, 23; STMT OF FACTS 3;
APP BR 2, 59, 61; APP REPLY BR 2, 29.
18 AMD COMP pages 2-4, 7-11; OPP TO DISM 21, 25.
19 Def. Motion to Dismiss filed 5/23/07 at 4, 17 and Declara­
tions 1-3; Def. MOL for reconsideration filed August 19, 2007 at 2
and Declaration 11.
20 2d AMD COMP 21; STMT OF FACTS 18, 23; APP BR 30,
54; APP REPLY BR 20, 14.

9
the 3-year statute of limitation, was raised in this
case.21
26 U.S.C. 6700, which provides for the imposition
of a penalty against any person who organizes or par­
ticipates in the sale of an abusive tax shelter was
raised in connection with classification of the With­
holding Petition for Redress as an abusive tax shelter
in this case,22 in We The People23 and Schulz l.2i
26 U.S.C. 6751, which provides, “No penalty under
this title shall be assessed unless the initial determi­
nation of such assessment is personally approved (in
writing) by the immediate supervisor of the individual
making such determination or such higher level official
as the Secretary may designate” was raised in this case
in connection with the failure of the IRS Agent making
the determination of the penalty against Schulz to ob­
tain the required approval.25
There is no federal constitutional or statutory
provision that controls in determining the nature of
the legal interest which Schulz had in the property of
the We The People organization at the time of the
21 STMT OF FACTS 16-19; APP BR 5, 8; APP REPLY BR
13-14.
22 AMD COMP 1, 2-18; 2d AMD COMP 2, 6-25; STMT OF
FACTS 9,12,15; APP BR passim; APP REPLY BR 1, 9.
23 OPP TO DISM 28-31, 40.
24 Def. Motion to Dismiss filed 5/23/07 at 1, 5-7,17, 20-22 and
throughout Declarations 1-3; Def. MOL in Opp. to Summary
Judgment filed July 16, 2007 at 1, 17-19.
25 2d AMD COMP 1-2, 10, 23-24; STMT OF FACTS 24-32;
APP BR 1, 46-50, 53, 65; APP REPLY BR 17-19.

10
transaction attacked. New York State’s common law
controls. Upon discovering Schulz had no financial in­
terest in the organization, the Government raised an
alter ego claim. The issue was raised in this case.26

INTRODUCTION
This case has two forerunners: We The People,
Schulz, et al. v. United States, 2005 U.S. Dist. LEXIS
20409 (D.D.C. 2005) aff’d 485 F.3d 140 (D.C. Cir., 2007)
which, after deciding not to consider the scope and pur­
pose of the Petition Clause, held Government was not
obligated to respond to any of the organization’s five
Petitions for Redress of Grievances, including its With­
holding Petition; and United States v. We The People,
Schulz, et al., 529 F. Supp. 2d 341 (N.D.N.Y., 2007),
aff’d 517 F.3d 606 (2d Cir., 2008) (Schulz 1), which held
the Withholding Petition was false commercial speech,
subject to penalty under 26 U.S.C. 6700, while avoiding
altogether Defendants’ Petition Clause claim and its
historical scope and purpose (see below).
Initially, the instant case was about a penalty, the
direct result of Schulz 1 (2008), but it is now a dispute
principally about the legitimacy of the preclusive effect
given We The People, et al. v. United States, 485 F.3d
140 (2007) and United States v. We The People, et al.,
517 F.3d 606 (2008) (Schulz 1) especially in view of this
Court’s decisions in District of Columbia u. Heller, 554
U.S. 570 (2008) and Borough of Duryea v. Guarnieri,
26 2d AMD COMP 1; STMT OF FACTS 23-25, 28; APP BR 1,
8-46; APP REPLY BR 19-32.

11
564 U.S. 379 (2011) which affirmed the controlling le­
gal principle relied on by Schulz throughout the liti­
gation — the historic and fundamental principles that
led to the enumeration of the right to petition in the
First Amendment.
Following discovery in this case (there was no
hearing or discovery in Schulz 1) this case now also in­
volves a dispute about jurisdiction under 26 U.S.C.
6751, culpability under 26 U.S.C. 6700 and statute of
limitations/jurisdiction under 26 U.S.C. 6501.

STATEMENT OF THE CASE
At this point, the primary concern is whether this
Court’s decisions in District of Columbia v. Heller, 554
U.S. 570 (2008) and Borough of Duryea v. Guarnieri,
564 U.S. 379 (2011) should intervene on behalf of
Schulz to ensure the fullness, fairness and complete­
ness of the litigation.
This case also concerns violations of: 1) 26 U.S.C.
6501, due to the failure of the IRS to timely return to
Schulz a signed Form 872 Consent to Extend Time To
Assess Penalty; 2) 26 U.S.C. 6751, due to the failure of
the IRS Agent who determined the penalty to obtain
the written approval of his supervisor; and 3) 26 U.S.C.
6700, due to the IRS’s admission of no financial benefit
to Schulz from the transaction attacked and the lack of
conclusive evidence that the organization was Schulz’s
alter ego.

12
I.

Historical Practice Should Determine Scope
and Purpose of the Petition Clause - Heller
and Guarnieri

In Borough of Duryea v. Guarnieri, 564 U.S. 379
(2011), four years after the D.C. and 2d Circuits elected
to avoid the historical record of the Petition Clause in
deciding the two forerunners to this case, this court
held:
“The First Amendment’s Petition Clause states
that ‘Congress shall make no law . . . abridg­
ing . . . the right of the people ... to petition
the Government for a redress of grievances.’
The reference to the ‘right of the people’ indi­
cates that the Petition Clause was intended to
codify a pre-existing individual right, which
means that we must look to historical practice
to determine its scope. See District of Colum­
bia v. Heller, 554 U.S. 570, 579, 592 (2008).”
Guarnieri at 403.
“Rights of speech and petition are not identi­
cal. Interpretation of the Petition Clause must
be guided by the objectives and aspirations
that underlie the Right.” Guarnieri at 388.
“[To determine] the proper scope and applica­
tion of the Petition Clause . . . Some effort
must be made to identify the historic and fun­
damental principles that led to the enumera­
tion of the right to petition in the First
Amendment, among other rights fundamen­
tal to liberty.” Guarnieri at 394.
“The right to petition is in some sense the
source of other fundamental rights, for peti­
tions have provided a vital means for citizens

13
to request recognition of new rights and to as­
sert existing rights against the sovereign.”
Guarnieri at 397.
“There is abundant historical evidence that
‘Petitions’ were directed to the executive and
legislative branches of government.” Guar­
nieri at 403.
“Petitions to the government assume an
added dimension when they seek to advance
political, social, or other ideas of interest to
the community as a whole. Petition, as a word,
a concept, and an essential safeguard of free­
dom, is of ancient significance in English
law and the Anglo-American legal tradition.”
Guarnieri at 394.
At all times throughout the petitioning process
and the litigation (this case and its two forerunners)
the organization and Schulz provided the Executive
and the Courts with a written copy of the information
that had been guiding them - a thorough, historical
review of the origin, line of growth, scope, purposeful
objectives and aspirations underlying the Right to Pe­
tition the Government for Redress of Grievances, in­
cluding the following:
Chapter 61 of the Magna Carta of 1215 which
reads in part:
“61. Since, moreover, for God and the amend­
ment of our kingdom and for the better allay­
ing of the quarrel that has arisen between us
and our barons, we have granted all these con­
cessions, desirous that they should enjoy them

/i

14
in complete and firm endurance forever, we
give and grant to them the underwritten se­
curity, namely, that the barons choose five and
twenty barons of the kingdom, whomsoever
they will, who shall be bound with all their
might, to observe and hold, and cause to
be observed, the peace and liberties we
have granted and confirmed to them by
this our present Charter, so that if we, or
our justiciar, or our bailiffs or any one of our
officers, shall in anything be at fault towards
anyone, or shall have broken any one of
the articles of this peace or of this secu­
rity, and the offense be notified to four barons
of the foresaid five and twenty, the said four
barons shall repair to us (or our justiciar, if we
are out of the realm) and, laying the trans­
gression before us, petition to have that
transgression redressed without delay.
And if we shall not have corrected the trans­
gression (or, in the event of our being out of
the realm, if our justiciar shall not have cor­
rected it) within forty days, reckoning from
the time it has been intimated to us (or to our
justiciar, if we should be out of the realm), the
four barons aforesaid shall refer that matter
to the rest of the five and twenty barons, and
those five and twenty barons shall, together
with the community of the whole realm,
distrain and distress us in all possible ways,
namely, by seizing our castles, lands, pos­
sessions, and in any other way they can,
until redress has been obtained as they
deem fit, saving harmless our own person,
and the persons of our queen and children;

15
and when redress has been obtained,
they shall resume their old relations to­
wards us. . .(emphasis added by Schulz).
Chapter 61 was thus a procedural vehicle for en­
forcing the rest of the Charter. It spells out the Rights
of the People and the obligations of the Government,
and the procedural steps to be taken by the People and
the King in the event of a violation by the King of any
provision of that Charter: the People were to transmit
a Petition for a Redress of their Grievances; the King
had 40 days to respond; if the King failed to re­
spond, the People could retain their money or vi­
olence could be legally employed against the King until
he Redressed the alleged Grievances.27
The First Amendment of our Bill of Rights, prohib­
iting laws “respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the Gov­
ernment for a redress of grievances” was rooted in the
1689 English Declaration of Rights which proclaimed
in part, “ [I] t is the Right of the subjects to petition the
King, and all commitments and prosecutions for such
petitioning is illegal.”
In 1774, the same Congress that adopted the Dec­
laration of Independence unanimously adopted an Act
in which they gave meaning to the People’s Right to
Petition for Redress of Grievances and the Right of
27 Magna Carta, Chapter 61. See also William Sharp
McKechnie, Magna Carta, 468-77 (2nd ed. 1914).

16
enforcement as they spoke about the People’s “Great
Rights.” Quoting:
“If money is wanted by rulers who have
in any manner oppressed the People, they
may retain it until their grievances are re­
dressed, and thus peaceably procure re­
lief, without trusting to despised petitions
or disturbing the public tranquility. »28
In 1775, prior to drafting the Declaration of Inde­
pendence, Thomas Jefferson gave further meaning to
the People’s Right to Petition for Redress of Grievances
and the Right of enforcement. Quoting:
“The privilege of giving or withholding
our moneys is an important barrier
against the undue exertion of preroga­
tive which if left altogether without
control may be exercised to our great op­
pression; and all history shows how effi­
cacious its intercession for redress of
grievances and reestablishment of rights,
and how improvident would be the sur­
render of so powerful a mediator.»29
In 1776, the Declaration of Independence was
adopted by the Continental Congress. The bulk of the
document is a listing of 27 grievances the People had
against the Government that had been ruling the col­
onies for 150 years. The final grievance on the list is
28 <
‘Continental Congress To The Inhabitants Of The Prov­
ince of Quebec.” Journals of the Continental Congress 1774. Jour­
nals 1:105-13.
29 Thomas Jefferson: Reply to Lord North, 1775. Papers
1:225.

17
referred to by scholars as the “capstone grievance,”
the grievance that prevented Redress of the other
Grievances, finally caused the People to withdraw
their support and allegiance to the Government, and
that eventually justified War against the King, morally
and legally. Thus, the Congress gave further meaning
to the People’s Right to Petition for Redress of Griev­
ances and the Right of enforcement. Quoting the cap­
stone grievance:
“In every stage of these Oppressions We have
Petitioned for Redress in the most humble
terms. Our repeated Petitions have been an­
swered only by with repeated injury. A Prince,
whose character is thus marked by every act
which may define a Tyrant, is thus unfit to be
the ruler of a free people. .. . We, therefore . . .
declare, That these United Colonies . . . are
Absolved from all Allegiance to the British
Crown. . . Declaration of Independence, 1776.
Though the Rights to Popular Sovereignty and its
“protector” Right, the Right of Petition for Redress
have become somewhat forgotten, they took shape
early on by government’s response to Petitions for Re­
dress of Grievances.30
30 See A SHORT HISTORY OF THE RIGHT TO PETITION
GOVERNMENT FOR THE REDRESS OF GRIEVANCES, Ste­
phen A. Higginson, 96 Yale L.J. 142 (November, 1986); “SHALL
MAKE NO LAW ABRIDGING... AN ANALYSIS OF THE NE­
GLECTED, BUT NEARLY ABSOLUTE, RIGHT OF PETITION,
Norman B. Smith, 54 U. Cin. L. Rev. 1153 (1986); “LIBELOUS”
PETITIONS FOR REDRESS OF GRIEVANCES - BAD HISTO­
RIOGRAPHY MAKES WORSE LAW, Eric Schnapper, 74 Iowa L.
Rev. 303 (January 1989); THE BILL OF RIGHTS AS A

18
The Right to Petition is a distinctive, substantive
Right, from which other substantive First Amendment
Rights were derived. The Rights to free speech, press
and assembly originated as derivative Rights insofar
as they were necessary to protect the preexisting
Right to Petition. Petitioning, as a way of holding gov­
ernment accountable to natural Rights, first appeared
in England in the 11th century31 and gained official
recognition as a Right in the mid-17th century.32 Free
speech Rights first developed because members of Par­
liament needed to discuss freely the Petitions they
CONSTITUTION, Akhil Reed Amar, 100 Yale L.J. 1131 (March,
1991); NOTE: A PETITION CLAUSE ANALYSIS OF SUITS
AGAINST THE GOVERNMENT: IMPLICATIONS FOR RULE
11 SANCTIONS, 106 Harv. L. Rev. 1111 (MARCH, 1993); SOV­
EREIGN IMMUNITY AND THE RIGHT TO PETITION: TO­
WARD A FIRST AMENDMENT RIGHT TO PURSUE JUDICIAL
CLAIMS AGAINST THE GOVERNMENT, James E. Pfander, 91
Nw. U.L. Rev. 899 (Spring 1997); THE VESTIGIAL CONSTI­
TUTION: THE HISTORY AND SIGNIFICANCE OF THE
RIGHT TO PETITION, Gregory A. Mark, 66 Fordham L. Rev.
2153 (May, 1998); DOWNSIZING THE RIGHT TO PETITION,
Gary Lawson and Guy Seidman, 93 Nw. U.L. Rev. 739 (Spring
1999); A RIGHT OF ACCESS TO COURT UNDER THE PETI­
TION CLAUSE OF THE FIRST AMENDMENT: DEFINING
THE RIGHT, Carol Rice Andrews, 60 Ohio St. L.J. 557 (1999);
MOTIVE RESTRICTIONS ON COURT ACCESS: A FIRST
AMENDMENT CHALLENGE, Carol Rice Andrews, 61 Ohio St.
L.J. 665 (2000).
31 Norman B. Smith, “Shall Make No Law Abridging . . . ”:
Analysis of the Neglected, But Nearly Absolute, Right of Petition,
54 U. CIN. L. REV. 1153, at 1154.
32 See Bill of Rights, 1689, 1 W & M., ch. 2 Sections 5, 13
(Eng.), reprinted in 5 THE FOUNDERS’ CONSTITUTION 197
(Philip B. Kurland & Ralph Lerner eds., 1987); 1 WILLIAM
BLACKSTONE, COMMENTARIES 138-39.

19
received.33 Publications reporting Petitions were the
first to receive protection from the frequent prosecu­
tions against the press for seditious libel.34 Public
meetings to prepare Petitions led to recognition of the
Right of Public Assembly.35
The Right to Petition was widely accorded greater
importance than the Rights of free expression. For in­
stance, in the 18th century, the House of Commons,36
the American Colonies,37 and the first Continental
Congress38 gave official recognition to the Right to Pe­
tition, but not to the Rights of Free Speech or of the
Press.39
The historical record shows the framers
and ratifiers of the First Amendment also un­
derstood the Petition Right as distinct from the
33 See David C. Frederick, John Quincy Adams, Slavery, and
the Disappearance of the Right to Petition, 9 LAW & HIST. REV.
113, at 115.
34 See Norman B. Smith, supra, at 1165-67.
35 See Charles E. Rice, Freedom of Petition, in 2 ENCYCLO­
PEDIA OF THE AMERICAN CONSTITUTION 789 (Leonard W.
Levy ed., 1986).
36 See Norman B. Smith, supra, at 1165.
37 For example, Massachusetts secured the Right to Petition
in its Body of Liberties in 1641, but freedom of speech and press
did not appear in the official documents until the mid-1700s. See
David A. Anderson, The Origins of the Press Clause, 30 UCLA L.
REV. 455, 463 n.47 (1983).
38 See id. at 464 n.52.
39 Even when England and the American colonies recognized
free speech Rights, petition Rights encompassed freedom from
punishment for petitioning, whereas free speech Rights extended
to freedom from prior restraints. See Frederick, supra, at 115-16.

20

Rights of free expression. In his original proposed
draft of the Bill of Rights, Madison listed the Right
to Petition and the Rights to free speech and press in
two separate sections.40 In addition, a “considerable
majority” of Congress defeated a motion to strike the
assembly provision from the First Amendment be­
cause of the understanding that all of the enumerated
rights in the First Amendment were separate Rights
that should be specifically protected.41
Petitioning government for Redress of Grievances
has played a key role in the development, exercise and
enforcement of popular sovereignty throughout British
and American history.42 In medieval England, petition­
ing began as a way for barons to inform the King of
their concerns and to influence his actions.43 Later, in
the 17th century, Parliament gained the Right to Peti­
tion the King and to bring matters of public concern to

40 See New York Times Co. v. U.S., 403 U.S. 670, 716 n.2
(1971) (Black, J., concurring). For the full text of Madison’s pro­
posal, see 1 ANNALS OF CONG. 434 (Joseph Gales ed., 1834).
41 See 5 Bernard Schwartz, The Roots Of The Bill Of Rights
at 1089-91 (1980).
42 See Don L. Smith, The Right to Petition for Redress of
Grievances: Constitutional Development and Interpretations 10108 (1971) (unpublished Ph.D. dissertation) (Univ. Microforms
Int’l); K. Smellie, Right to Petition, in 12 ENCYCLOPEDIA OF
THE SOCIAL SCIENCES 98, 98-101 (R.A. Seiligman ed., 1934).
43 The Magna Carta of 1215 guaranteed this Right. See
MAGNA CARTA, ch. 61, reprinted in 5 THE FOUNDERS’ CON­
STITUTION, supra n.5, at 187.

21
his attention.44 This broadening of political participa­
tion culminated in the official recognition of the right
of Petition in the People themselves.45
The People used this newfound Right to
question the legality of the government’s ac­
tions,46 to present their views on controversial mat­
ters,47 and to demand that the government, as the
creature and servant of the People, be respon­
sive to the popular will. 48

44 See PETITION OF RIGHT chs. 1, 7 (Eng. June 7, 1628),
reprinted in 5 THE FOUNDERS’ CONSTITUTION, supra at
187-88.
45 In 1669, the House of Commons stated that, “it is an in­
herent right of every commoner in England to prepare and pre­
sent Petitions to the House of Commons in case of grievances, and
the House of Commons to receive the same.” Resolution of the
House of Commons (1669), reprinted in 5 THE FOUNDERS’
CONSTITUTION, supra at 188-89.
46 For example, in 1688, a group of bishops sent a petition to
James II that accused him of acting illegally. See Norman B.
Smith, supra, at 1160-62. James II’s attempt to punish the bish­
ops for this Petition led to the Glorious Revolution and to the
enactment of the Bill of Rights. See Donald L. Smith, supra at
41-43.
47 See Norman B. Smith, supra at 1165 (describing a Petition
regarding contested parliamentary elections).
48 In 1701, Daniel Defoe sent a Petition to the House of Com­
mons that accused the House of acting illegally when it incarcer­
ated some previous petitioners. In response to Defoe’s demand for
action, the House released those Petitioners. See Norman B.
Smith, supra at 1163-64.

22

In the American colonies, disenfranchised groups
used Petitions to seek government accountability for their
concerns and to rectify government misconduct.49
By the nineteenth century, Petitioning was
described as “essential to ... a free government”50
- an inherent feature of a republican democracy,51
and one of the chief means of enhancing govern­
ment accountability through the participation
of citizens.
This interest in Government accountability
was understood to demand Government response
to Petitions.52
American colonists, who exercised their Right
to Petition the King or Parliament,53 expected the
49 RAYMOND BAILEY, POPULAR INFLUENCE UPON
PUBLIC POLICY: PETITIONING IN EIGHTEENTH-CENTURY
VIRGINIA, 43-44 (1979).
50 THOMAS M. COOLEY, TREATISE ON THE CONSTITU­
TIONAL LIMITATIONS WHICH REST UPON THE LEGISLA­
TIVE POWER OF THE STATES OF THE AMERICAN UNION,
531 (6th ed. 1890).
51 See CONG. GLOBE, 39th Cong., 1st Session. 1293 (1866)
(statement of Rep. Shellabarger) (declaring petitioning an indis­
pensable Right “without which there is no citizenship” in any
government); JOSEPH STORY, COMMENTARIES ON THE
CONSTITUTION OF THE UNITED STATES 707 (Carolina Ac­
ademic Press ed. 1987) (1833) (explaining that the Petition Right
“results from [the] very nature of the structure [of a republican
government]”).
52 See Frederick, supra at 114-15 (describing the historical
development of the duty of government response to Petitions).
53 See DECLARATION AND RESOLVES OF THE CONTI­
NENTAL CONGRESS 3 (Am. Col. Oct. 14, 1774), reprinted
in 5 THE FOUNDERS’ CONSTITUTION, supra n5 at 199;

23

government to receive and respond to their Peti­
tions.54 The King’s persistent refusal to answer
the colonists’ grievances outraged the colonists,
and as the grievance that capped all the others
it was the most significant factor that led to the
American Revolution.55
Frustration with the British government led the
Framers to consider incorporating a people’s right to
“instruct their Representatives” in the First Amend­
ment.56 Members of the First Congress easily defeated
this right-of-instruction proposal.57 Some discretion to
reject petitions that “instructed government,” they rea­
soned, would not undermine government accountabil­
ity to the People, as long as Congress had a duty to
consider petitions and fully respond to them.58

DECLARATION OF RIGHTS OF THE STAMP ACT CONGRESS
13 (Am. Col. Oct. 19, 1765), reprinted in id. at 198.
64 See Frederick, supra at 115-116.
55 See THE DECLARATION OF INDEPENDENCE para. 30
(U.S. July 4, 1776), reprinted in 5 THE FOUNDERS’ CONSTI­
TUTION, supra at 199; Lee A. Strimbeck, The Right to Petition,
55 W. VA. L. REV. 275, 277 (1954).
56 See 5 BERNARD SCHWARTZ, supra 1091-105.
57 The vote was 10-41 in the House and 2-14 in the Senate.
See id. at 1105, 1148.
58 See 1 ANNALS OF CONG. 733-46 (Joseph Gales ed.,
1789); 5 BERNARD SCHWARTZ, supra at 1093-94 (stating that
representatives have a duty to inquire into the suggested measures
contained in citizens’ Petitions) (statement of Rep. Roger Sher­
man); id. at 1095-96 (stating that Congress can never shut its
ears to Petitions) (statement of Rep. Elbridge Gerry); id. at 1096
(arguing that the Right to Petition protects the Right to bring

24
Congress’s response to Petitions in the early years
of the Republic also indicates that the original under­
standing of Petitioning included a governmental
duty to respond. Congress viewed the receipt and se­
rious consideration of every Petition as an important
part of its duties.59
Congress referred Petitions to committees60 and
even created committees to deal with particular types
of Petitions.61 Ultimately, most Petitions resulted in ei­
ther favorable legislation or an adverse committee re­
port.62
Thus, throughout early Anglo-American history,
general petitioning of the legislative and executive (as
opposed to judicial petitioning) allowed the people a
means of direct political participation that in turn

non-binding instructions to Congress’s attention) (statement of
Rep. James Madison).
59 See STAFF OF HOUSE COMM. ON ENERGY AND COM­
MERCE, 99TH CONG., 2D SESS., PETITIONS, MEMORIALS
AND OTHER DOCUMENTS SUBMITTED FOR THE CONSID­
ERATION OF CONGRESS, MARCH 4,1789 TO DECEMBER 15,
1975, at 6-9 (Comm. Print 1986) (including a comment by the
press that “the principal part of Congress’s time has been taken
up in the reading and referring Petitions” (quotation omitted)).
60 See Stephen A. Higginson, Note, A Short History of the
Right to Petition the Government for the Redress of Grievances, 96
YALE L. J. 142, at 156.
61 See H.J., 25th Cong., 2d Sess. 647 (1838) (describing how
petitions prompted the appointment of a select committee to con­
sider legislation to abolish dueling).
62 See Higginson, supra at 157.

25

demanded government response and promoted
government accountability.
II.

The Organization’s Petitions Were Proper
First Amendment Petitions for Redress

Each of the five Petitions for Redress at issue in
this case, including the Withholding Petition, were
proper Petitions for Redress of violations of the Con­
stitution, each protected by the First Amendment, in
that they:
were serious and documented, not frivolous;
contained no falsehoods;
were not absent probable cause;
had the necessary quality of a dispute;
came from citizens outside the formal political
culture;
involved legal principles, not political talk;
were punctilious and dignified, containing
both a “direction” and a “prayer” for relief;
addressed a public, collective grievance with
widespread participation and consequences;
were instruments of deliberation not agita­
tion; and
provided legal notice seeking substantive Re­
dress to cure the infringement of a right under
the Constitution and laws pursuant thereto.

26

III. The D.C. and 2d Circuits Have Abolished
the First Amendment Right to Petition and
by Extension the Structure of the Consti­
tution
Between May of 1999 and November of 2002, the
organization, together with tens of thousands of other
ordinary Americans, sought to exercise their right to
hold the Government accountable by petitioning the
Government for redress of what they perceived to be
violations of the Constitution’s prohibition against un­
declared wars,63 unreasonable invasions of privacy,64
un-enumerated powers,65 and direct, un-apportioned
taxes.66
The petitions quoted the Constitution and laws,
provided factual evidence of the violations and respect­
fully, imaginatively and persistently asked the Govern­
ment of the United States to respond. The Government
did not respond, except for an insincere response
meant only to end a hunger fast.67
63 Public Law 107-243 (Iraq Resolution): violation of Art. I,
Section 8, Clause 11.
64 Public Law 107-56 (Patriot Act): violation of Fourth
Amendment.
65 Public Law 63-43 (Federal Reserve Act): an un-enumer­
ated power.
66 The direct, un-apportioned tax on labor: a violation of Art.
I, Section 9, Clause 4.
67 On July 1, 2001, Schulz, in his individual capacity, em­
barked on a personal hunger fast until the Government agreed
to meet in a public, congressional-style hearing on Capitol Hill
to discuss the constitutionality of the direct, uriapportioned tax
on labor. On July 20, 2001, with the assistance of Rep. Roscoe

27

On March 15, 2003, the organization petitioned
the federal Government for redress of grievances re­
lated to the federal policy of forcing companies to
withhold taxes from the paychecks of workers. The
Tax Withholding Petition alleged the policy violated
the Right to Petition itself by preventing the People
from peacefully enforcing their Constitutional Rights
against a Government stubbornly resistant to their
Bartlett, the IRS and DOJ agreed to such a congressional-style
hearing. The agreed-upon date of the hearing, to be chaired by
Rep. Henry Hyde, was September 22-23, 2001. Schulz ended his
20-day hunger fast. The organization hired three licensed and
practicing constitutional attorneys to prepare the questions to be
asked of the Government at the agreed-upon hearing. However,
the events of September 11, 2001 led to Government’s cancella­
tion of the congressional-style hearing on Capitol Hill. The organ­
ization organized a two-day hearing at the Washington Marriott
on February 22-23, 2002, which was public and live-streamed on
the Internet, where numerous tax-professionals, including a for­
mer IRS Counsel, former IRS Agents and practicing attorneys,
CPAs and tax law researchers answered the questions, support­
ing their answers with factual evidence which was displayed on a
large screen for the full audience to see. The New York Times cov­
ered the event, describing it in an article published the next day
as a “multi-media, technological breakthrough.” Following the
hearing, Rep. Bartlett mailed a copy of the questions to the DOJ,
requesting answers. In April of 2002, DOJ sent a letter advising
Rep. Bartlett that the Government would not be responding to the
questions, and that for four years the DOJ and the IRS had been
attempting, without success, to get Congress to put into law that
the issues addressed by the questions were frivolous. Following
the hearing at the Marriott, the organization delivered a complete
video and transcribed record of the hearing to the executive and
various legislative committees in Congress, requesting a re­
sponse. Each and every member of Congress received a complete
video and transcribed record from one or more of their constitu­
ents, requesting a response. There was no response.

28

authority. The Petition also alleged the policy con­
flicted with nine identified federal Statutes, rules and
regulations. The transmittal letter respectfully re­
quested of the Government that it advise the organ­
ization if any of the content of the Petition was “faulty
or misleading.”
Absent a response from the Government, the or­
ganization placed the Petition on its website for free
download, and members and supporters of the organi­
zation from across the country organized 37 free meet­
ings from April 5 through March 27, 2003, where they
handed out, for free, a total of 3500 copies of the Peti­
tion that they had printed locally; regional IRS and
DOJ officials were formally invited to attend the meet­
ings and to let the organization know if anything being
said or handed out was faulty or misleading.
While the meetings were underway, the Internal
Revenue Service summoned Schulz to provide his
books and records and those of the organization as part
of what it called an abusive tax shelter investigation
under 26 U.S.C. 6700. When asked by the NY Times
why it was not responding to the organization’s Peti­
tion, the IRS publicly admitted it was “responding to
the Petitions with enforcement actions.”68
In 2003, Schulz sued to quash the IRS summonses.
Schulz claimed the Tax Withholding Petition was a
proper Petition for Redress and that the IRS was retal­
iating against Schulz and the organization due to their
68

New York Times, September 17, 2003.

29
repeated Petitions for Redress of violations of the Con­
stitution. In 2005, the 2d Circuit Court of Appeals de­
cided, on due process grounds, that Schulz did not have
to respond to summonses issued by the IRS in 2003. 69
In July of 2004, Schulz, representing himself,
along with attorney Mark Lane, who was representing
the organization and 1450 citizens residing in all 50
States, filed a declaratory judgment action in the D.C.
District Court asking the Court to declare if the United
States was obligated to provide a meaningful response
to the subject Petitions for Redress, and if People had
the right to retain their money until their grievances
were redressed. The plaintiffs argued they were rely­
ing on the historical record of the Right for an affirma­
tive answer to both questions.
The matter reached the Court of Appeals for the
D.C. Circuit, where oral arguments were heard on Oc­
tober 6, 2006, but a final decision was not issued until
May 7, 2007. During those seven months, Public Law
109-432 was passed and signed into law, Treasury No­
tice 2007-30 was issued and United States v. We the
People, et al. (Schulz 1) was initiated.
Public Law 109-432, Division A, Part IV, Section
407 authorized the Treasury Secretary to define “friv­
olous” and prescribe a list of “specified frivolous posi­
tions” and to penalize anyone who submits a specified
frivolous position in any proceeding before the Treas­
ury Department.
69 Schulz v IRS, 413 F.3d 297 (2d Cir., 2005).

30

Treasury Notice 2007-30 was issued in March of
2007. Pursuant to Public Law 109-432, it included a
list of “specified frivolous positions.” Listed at para­
graph 9(b) as a frivolous position is “A taxpayer may
withhold payment of taxes or the filing of a tax return
until the Service or other government entity responds
to a First Amendment petition for redress of griev­
ances.”
In April of2007, the United States sued the We the
People organization and Schulz, claiming the With­
holding Petition was an abusive tax shelter subject to
penalty and its further distribution should be prohib­
ited. United States v. We The People, et al., 529 F. Supp.
2d 341 (N.D.N.Y. 2007), aff’d 517 F.3d 606 (2d Cir.,
2008) (Schulz 1).
On May 8, 2007, the D.C. Court of Appeal decided
We The People, et al. u. United States, 485 F.3d 140. Cit­
ing Minnesota u. Knight 465 U.S. 271 (1984) and Smith
v. Arkansas, 441 U.S. 463 (1979) the Court opined the
Government was not obligated to respond to any Peti­
tion for Redress of Grievances. The D.C. Court ad­
mitted, however, that the historical record of
the Right to Petition was not before this Court
during Smith and Knight and that there is “an
emerging consensus of scholars embracing ap­
pellant’s interpretation of the right to petition”
and that it nevertheless felt bound by the ruling
in Minnesota.

31
Judge Rogers, in a concurring opinion wrote in rel­
evant part:
“[T]he Supreme Court precedents in Smith
and Knight govern this case . . . That prece­
dent, however, does not refer to the histor­
ical evidence and we know from the
briefs in Knight that the historical argu­
ment was not presented to the Supreme
Court ... In the context of the First
Amendment, the Supreme Court has re­
peatedly emphasized the significance
of historical evidence ... there is ‘an
emerging consensus of scholars’ em­
bracing appellants’ interpretation of
the right to petition . . . the historical con­
text and the underlying purpose have been
the hallmarks of the Supreme Court’s ap­
proach to the First Amendment . . . appel­
lants’ emphasis on contemporary historical
understanding and practices is consistent
with the Supreme Court’s traditional inter­
pretative approach to the First Amendment.”
(citations and quotations omitted) (emphasis
added). We The People at 144-149.
On August 9, 2007, without ever mentioning the
right to Petition and its historical record, but mention­
ing speech twenty-four times, the Northern District of
New York decided Schulz 1, deciding the organiza­
tion’s Withholding Petition was forbidden speech
subject to penalty under 26 U.S.C. 6700. The District
Court prohibited the further distribution of the
Petition but did not impose a financial penalty. On
February 22, 2008 the 2d Circuit affirmed, 517 F.3d

32

606 (2d Cir., 2008) “for substantially the reasons set
forth in the District Court’s decision.”
On December 28,2008, the IRS revoked the organ­
ization’s tax-exempt status, retroactive to 2003, citing
“political and legislative” grounds, and applied a pen­
alty against the organization which with interest is es­
timated to amount to more than $500,000 today. The
IRS auditor who revoked the tax-exempt status and
applied the penalty in 2008 is the same auditor who,
in 2007 completed a year-long, wide-ranging audit of
the organization’s books and records and declared the
records “detailed, thorough and professional and no in­
urement”; but rather than close his audit he paused
the audit, pending the outcome of Schulz 1, admitting
he did so at the direction of IRS’s Lois Lerner. The IRS
admitted it violated 26 U.S.C. 6501 and the Internal
Revenue Manual by not providing Schulz in 2007 with
a signed Form 872 Consent to Extend Time to Assess a
Penalty until long after the 36 month statute of limi­
tations had tolled.70
Three years later, in 2011, this court issued its de­
cision in Borough ofDuryea v. Guarnieri, 564 U.S. 379.
However, in 2015, citing Schulz 1, the IRS issued
a Notice of Penalty pursuant to 26 U.S.C. 6700 against
Schulz personally in the amount of $225,000. This case
followed.
Schulz moved early to relitigate the forerunners
on the ground that absent consideration of the historical
70 STMT OF FACTS 18-19.

33

record of the Petition Clause they were not fully, fairly
or completely litigated. The motion was denied.
During discovery, Schulz proved he not only never
received any compensation from the organization
there was more than $110,000 in organization-related
expenses between 2000 and 2008 that Schulz had paid,
had not been reimbursed and had forgiven. Following
the submission of that evidence the Government
shifted its penalty argument, arguing the organization
was Schulz’s alter ego arguing Schulz was therefore
personally responsible for the penalty and, presuma­
bly, the penalty imposed on the organization in 2008
(above).
The Government’s alter ego claim was built on
cherry-picked inferences - i.e., logical deductions
based on premises assumed to be true and relevant,
while Schulz’s defense was built on material facts that
were not in genuine dispute, including the following:
•

The We The People organization (“WTP”) and
Schulz observed the corporate formalities, e.g.
frequent committee and director meetings
with detailed operational and financial re­
ports, maintenance of corporate records, and a
constant stream of written, extraordinarily
detailed, updates reporting on all of WTP’s
day-to-day activities.

•

Schulz’s control, as the person legally and for­
mally charged with running the day-to-day
activities of WTP, did not exceed that which
was authorized by WTP’s official By-Laws.

34
•

Neither WTP nor Schulz ever expected to earn
any gross income from the Withholding Peti­
tion and never did.

•

WTP’s and Schulz’s personal finances were
never blended thoroughly into a harmonious
whole or pooled together to reduce risk or cost
- i.e., “commingled.”

•

There were no loans, either unsecured, inter­
est free or otherwise from WTP to Schulz or
from Schulz to WTP.

•

WTP never paid Schulz a salary or compen­
sated him in any way for his time.

•

In keeping with WTP’s entries in its official
IRS Form 1023, WTP conducted its business
from a fully equipped, 2,000 square foot office
space in Schulz’s home, until such time as
WTP was able to operate from its own “citizen
vigilance center.”

•

WTP never compensated Schulz for its use of
his home and Schulz never took a deduction
on his taxes for turning the space over to WTP
for its use.

•

When able to do so, WTP reimbursed Schulz a
partial amount of his out-of-pocket expenses
incurred as a result of WTP’s use of his elec­
trically-heated basement office space and his
telephone lines, as authorized by WTP’s Board
of Directors.

•

There was more than $110,000 in other WTPrelated expenses paid by Schulz which were
unreimbursed, forgiven and never the subject

35

of any agreement, written or otherwise, be­
tween WTP and Schulz.
•

WTP was never undercapitalized relative to
its reasonable, anticipated risks of business.

•

WTP was not being used as a “shell” by Schulz
to enrich himself or to advance his own purely
personal interests at the expense of WTP, the
government or any other party. He had no
business of his own.

•

The facts prove an absence of both an indi­
rect and direct personal, financial or eco­
nomic benefit derived or to be derived by
Schulz from the activity.

During discovery, the IRS Agent who made the de­
termination to penalize Schulz was unable to prove he
had satisfied the jurisdictional requirements of 26
U.S.C. 6751.

REASONS FOR GRANTING THE WRIT
The Court should grant certiorari because of the
important sovereign interests at stake - whether the
Right to Petition the Government for Redress of Griev­
ances is an individual, unalienable civil liberty, a prom­
ise given full faith and credit when the nation was
founded, one of our most significant checks and bal­
ances, thus not to be infringed, abridged or abolished
by government officialdom, either by legislation, exec­
utive action or judicial interpretation.

36

I.

This is a First Impression Case of Excep­
tional Constitutional Importance.

This litigation equates to a first-impression case.
No Court has declared the Rights of the People and
the obligations of the Government under the Petition
Clause.
The First Amendment is arguably the single-most
important sentence in the history or our Nation. Es­
sential, unalienable, individual Rights were guaran­
teed by that sentence, including the right of the People
to hold the government accountable to the rest of the
Constitution by petitioning for redress of its violations.
A decision denying that right, or even placing limita­
tions upon it, is of exceptional constitutional im­
portance.
It is a settled and invariable principle, that every
right when withheld must have a remedy, and every
injury its proper redress. See Blackstone, Commen­
taries on the Laws of England 23 and Marbury v. Mad­
ison, 5 U.S. (1 Cranch) 137,162-163 (1803).
Without the ability to hold the government
accountable to existing laws by virtue of the Pe­
tition Clause the structure of the Constitution is
destroyed.
If the American People are truly free, with natural,
individual Rights endowed by the Creator rather than
privileges granted by the State, and if those Rights are
unalienable, and if the government is truly a servant
government established by the sovereign People to

37

secure those Rights, and if the power of the govern­
ment to act is strictly limited by the original meaning
of the words of the U.S. Constitution, and if the People
have evidence that government officials in the political
branches have stepped outside the boundaries drawn
around their power and are acting in spite of constitu­
tional prohibitions, and if the People have intelligently,
rationally, professionally, non-violently and repeatedly
Petitioned those officials with proper statements of
grievances and proper prayers for relief, and if the gov­
ernment officials have decided to ignore the People’s
Petitions, fail to justify their constitutionally tortious
behavior and refuse to be held accountable to the Con­
stitution and Bill of Rights, the Sovereign People have
a natural, lawful Right to peacefully defend the Con­
stitution and enforce their individual Rights by, for ex­
ample, retaining money wanted by those government
officials until their grievances are redressed, and to ex­
ercise such Right without retaliation by the govern­
ment.
No Court has declared the Rights of the People
and the obligations of the Government under the Peti­
tion Clause. To do so now would be a public service of
great importance. It is much needed.
II.

The D.C. and 2d Circuits Prohibited the
Sovereign People From Defending Their
Law By Abolishing Their Right to Petition
for Redress

As demonstrated above and without interven­
tion by this Court, it is now the law of the land that

38

the Right of the People to hold their Government ac­
countable to existing law via the Petition Clause has
been abolished by the Government.
By virtue of Public Law 109-432, the Legislative
branch has given the Executive the power to make law.
By virtue of Public Law 109-432 and Treasury No­
tice 2007-30, the Executive branch has declared “friv­
olous” and subject to penalty the position that, “A
taxpayer may withhold payment of taxes or the filing
of a tax return until the Service or other government
entity responds to a First Amendment petition for re­
dress of grievances.”
By virtue of We The People and Schulz 1, the D.C.
and 2d Circuits have declared Government is not obli­
gated to respond, not only to petitions by public serv­
ants in their official capacities seeking to influence
lawmaking, as in Smith and Knight, but also to pe­
titions by ordinary, non-aligned citizens seeking to
hold government accountable when lawbreaking,
and those who seek “redress before taxes” are subject
to penalty.
III. History Repeats Itself.
History repeats itself. This aphorism is rich in
meaning and relevant here.
“Our repeated petitions are being answered only
with repeated injury” declared the founding fathers,
referring to the thirteen years prior to the Declaration

39
of Independence, as they chose separation over recon­
ciliation.
If left undisturbed, this case, together with its two
forerunners would remove the linchpin of the constitu­
tional system of checks and balances - the cornerstone
of our system of governance.
If left undisturbed, this litigation would eviscerate
the legal and functional substance of the Bill of Rights
- i.e., the Right of the People to peacefully hold the
Government accountable to the war, tax, privacy, enu­
merated powers and other provisions of the Constitu­
tion by denying the People their Right to a response
from the Government to their proper Petitions for a
Redress of constitutional torts and by denying the Peo­
ple their Right to peacefully enforce the Right by retain­
ing their money until their Grievances are redressed.
After all, the Petition is to the individual, the mi­
nority and the Constitutional Republic, what the ballot
is to the majority and a pure Democracy. Stripped of its
original intent and power, the Petition Clause becomes
nothing more than a redundant expression clause,
leaving the People powerless and the Constitution in­
effective.
As Thomas Jefferson warned, “No government can
continue good but under the control of the People. ”71

71 Thomas Jefferson to John Adams, 1819.

40
CONCLUSION
The Court should grant the petition, vacate the
judgment below and the judgments in the two forerun­
ners, and remand to the D.C. Circuit in light of Heller
and Guarnieri.
Respectfully submitted,
Robert L. Schulz, pro se
2458 Ridge Road
Queensbury, NY 12804
(518) 361-8153
Bob@givemeliberty.org

